No. 19IN THE

~upreme QI:ourt of tbe fflniteb ~tates
CHRISTOPHER EDWARD MCMILLEN
AN INCAPACITATED PERSON,

Petitioner,

v.
NEW CANEY INDEPENDENT SCHOOL DISTRICT,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Petition
for Writ of Certiorari in McMillen u. New Caney Independent School District,
No. 19-__, complies with the word limitations, as it contains 8,856 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: January 30, 2020

7snay Dvoretzky

